                                                                                 Issue Date
                                                                                          February 23, 2012
                                                                                  
                                                                                 Audit Report Number
                                                                                              2012-CH-1003




TO:               Steven Meiss, Director of Public Housing Hub, 5APH

                  //signed//
FROM:             Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: The Springfield Housing Authority, Springfield, IL, Needs To Improve Its
           American Recovery and Reinvestment Act Contract Administration
           Procedures


                                               HIGHLIGHTS

    What We Audited and Why

                   We audited the Springfield Housing Authority’s American Recovery and
                   Reinvestment Act of 2009 Public Housing Capital Fund Stimulus formula grant.
                   The audit was part of the activities in our fiscal year 2011 annual audit plan. We
                   selected the Authority based upon our analysis of risk factors relating to the
                   housing agencies in Region V’s1 jurisdiction. Our objective was to determine
                   whether the Authority administered its grant in accordance with Recovery Act,
                   U.S. Department of Housing and Urban Development’s (HUD), and its
                   requirements.


    What We Found

                    The Authority did not administer its grant in accordance with Recovery Act,
                    HUD’s, and its requirements. Specifically, it did not ensure that its contractors
                    purchased products that met Federal minimum energy efficiency standards and
                    paid their employees the appropriate prevailing wage rates in accordance with the
                    Davis-Bacon Act.
1
    Region V includes the States of Indiana, Illinois, Ohio, Michigan, Minnesota, and Wisconsin.
           The Authority also did not ensure that it (1) charged more than $134,000 in
           Recovery Act funds to the correct accounts, (2) performed inspections of the
           construction work before issuing payments, and (3) approved purchases in
           accordance with HUD’s requirements and its policies and procedures.

           Further, the Authority did not obtain or maintain procurement documentation in
           accordance with HUD’s requirements and its own policies and procedures.
           However, the Authority accurately reported its Recovery Act progress and
           disbursed its grant funds in a timely manner in accordance with HUD’s
           requirements.

           As a result of the Authority’s noncompliance, its contractors purchased nearly
           $87,000 in products that did not meet Energy Star standards and underpaid their
           employees by more than $4,300. Additionally, the Authority was unable to
           provide documentation to support more than $135,000 in wages, and HUD and
           the Authority lacked assurance that Recovery Act-funded contracts were properly
           procured and executed.

           We informed the Authority’s executive director and the Director of HUD’s
           Chicago Office of Public Housing of minor deficiencies through a memorandum,
           dated February 21, 2012.

What We Recommend

           We recommend that the Director of HUD’s Chicago Office of Public Housing
           require the Authority to (1) reimburse nearly $87,000 from non-Federal funds to
           HUD for transmission to the U.S. Treasury, (2) pursue collection from the
           applicable contractors or reimburse the appropriate employees more than $4,300
           from non-Federal funds, (3) support or reimburse more than $135,000 from non-
           Federal funds to HUD for transmission to the U.S. Treasury, and (4) implement
           adequate quality control procedures to address the findings cited in this audit
           report.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Chicago Office of Public Housing and the Authority’s executive director
           during the audit. We also provided our discussion draft audit report to the




                                            2
Authority’s executive director, its board chairman, and HUD’s staff during the
audit. We held an exit conference with the Authority’s executive director on
February 6, 2012.

We asked the Authority’s executive director to provide comments on our
discussion draft audit report by February 13, 2012. The Authority’s executive
director provided written comments, dated February 13, 2012. The executive
director generally agreed with our findings and disagreed with our monetary
recommendations. The complete text of the auditee’s response, along with our
evaluation of that response, can be found in appendix B of this report except for
72 pages of documentation that was not necessary for understanding the
Authority’s comments. A complete copy of the Authority’s comments was
provided to the Director of HUD’s Chicago Office of Public Housing.




                                 3
                            TABLE OF CONTENTS

Background and Objective                                                          5

Results of Audit
      Finding 1: The Authority’s Contract Administration Procedures Had
      Weaknesses                                                                  6

      Finding 2: The Authority Did Not Appropriately Administer Its Grant Funds   9

      Finding 3: The Authority’s Procurement Procedures Had Weaknesses            12

Scope and Methodology                                                             15

Internal Controls                                                                 17

Appendixes
   A. Schedule of Questioned Costs                                                19
   B. Auditee Comments and OIG’s Evaluation                                       20
   C. Federal Requirements and the Authority’s Program Administrative Plan        29




                                            4
                       BACKGROUND AND OBJECTIVE

The Springfield Housing Authority was established by the State Housing Board of Illinois in
November 1937 under the laws of the State of Illinois to provide decent, safe, and sanitary housing.
The Authority is governed by a five-member board of commissioners. The mayor of Springfield
appoints the commissioners to serve 5-year staggered terms. As of September 6, 2011, the
Authority had four commissioners on its board. The board’s responsibilities include overseeing the
administration of the Authority and approving policies. The board appoints the executive director.
The executive director is responsible for ensuring that the policies are followed and providing
oversight of the Authority’s programs.

The Public Housing Capital Fund Stimulus (formula) Recovery Act Funded grant is administered
by the U.S. Department of Housing and Urban Development’s (HUD) Office of Public Housing.
The grant funds are available for capital and management activities, including the development,
financing, and modernization of public housing projects.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act. The
Recovery Act provided an additional $4 billion to public housing agencies to carry out capital and
management activities, including the modernization and development of public housing. The
Recovery Act required that $3 billion of these funds be distributed as formula grants and the
remaining $1 billion be distributed through a competitive process. In March 2009, the Authority
received a formula grant for more than $2 million. According to HUD requirements, the Authority
was required to obligate 100 percent of its grant funds within 1 year, expend 60 percent of the funds
within 2 years, and fully expend the funds within 3 years. As of January 2011, the Authority had
obligated and expended all of its grant funds.

Our objective was to determine whether the Authority effectively administered its grants in
accordance with Recovery Act, HUD’s, and its requirements. Specifically, we wanted to
determine whether the Authority (1) ensured that its contractors followed Recovery Act, HUD’s,
and its requirements, (2) appropriately administered its Recovery Act grant funds, and (3)
appropriately procured contracts for grant projects.




                                                  5
                                RESULTS OF AUDIT

Finding 1: The Authority’s Contract Administration Procedures Had
Weaknesses
The Authority’s contract administration procedures had weaknesses. Specifically, the Authority
did not ensure that its contractors complied with Federal energy efficiency requirements and paid
employees the appropriate prevailing wage rates in accordance with the Davis-Bacon Act. It
also did not ensure that it maintained adequate payroll documentation. This condition occurred
because the Authority lacked an understanding of Federal requirements and an adequate system
of quality control. As a result, 2 of its contractors purchased $86,864 in products that did not
meet Federal energy efficiency requirements, and 6 contractors underpaid $4,346 in wages,
collectively, to 16 employees. In addition, the Authority was unable to provide documentation to
support $135,454 in wages paid to its contractors’ employees.



 The Authority Did Not Follow
 Federal Energy Efficiency
 Requirements

              According to Federal regulations, the Authority was required to ensure that its
              contractors purchased products that met Federal Energy Management Program or
              Energy Star standards. The Authority executed five contracts that required the
              purchase of products that met Federal energy efficiency standards. The five
              contracts included (1) upgrades to heating, ventilation, and air conditioning
              equipment at two of the Authority’s housing development and scattered sites and (2)
              the replacement of windows and doors at its scattered sites.

              The Authority did not ensure that its heating, ventilation, and air conditioning
              equipment met the minimum energy efficiency standards for four of its five
              contracts. The bid packets for the four contracts specified that Energy Star-rated
              furnaces were required; however, they did not specify the energy efficiency
              requirements for the air conditioners or water heaters. The Authority executed
              contracts with two contractors to replace furnaces, air conditioners, and water
              heaters. Both contractors purchased and installed air conditioners and water heaters
              that did not meet the minimum energy efficiency standards. The Authority executed
              another contract for the installation of its furnaces and air conditioners. This
              contractor also purchased and installed air conditioners that did not meet the
              minimum energy efficiency standards. The Authority’s construction manager and
              contract administrator said that they were not aware of the Federal energy efficiency
              requirements.




                                                6
           According to Federal regulations, housing authorities must purchase energy-efficient
           products unless the purchase of the energy-efficient products is not cost effective.
           We reviewed the products purchased that did not meet minimum energy efficiency
           standards to determine whether the purchases were cost effective. The purchases of
           air conditioners by two contractors were not cost effective. The contractors received
           $86,864 in Recovery Act grant funds to purchase and install the air conditioners. In
           addition, if the Authority had installed air conditioners that met the Federal energy
           efficiency requirements, it would have saved $2,391 annually in utility costs.


The Davis-Bacon Act Was Not
Followed

           The Davis-Bacon Act applies to all construction contracts greater than $2,000. The
           Authority executed 19 Recovery Act construction contracts that were greater than
           $2,000. However, it did not obtain sufficient documentation from its contractors to
           determine whether their employees were paid the appropriate prevailing wage rates
           in accordance with the Davis-Bacon Act. Based on our review of the 19 contract
           files, the Authority did not obtain required payroll reports for 9 contracts and did not
           conduct employee interviews for 12 of the contracts. In addition, the Authority did
           not obtain copies of pay stubs or paychecks to ensure that employees received the
           wages reported on the payroll documents received.

           For the 19 contracts reviewed, based on the payroll documentation provided, 6 of the
           contractors paid 16 of their employees at hourly rates that were less than the
           applicable prevailing wage rates. The 16 employees were underpaid by a total of
           $4,346. Further, the Authority was unable to provide payroll documentation for an
           additional $135,454 in wages paid to the contractors’ employees. Recommendations
           1B and 1C were revised to reflect the documentation provided by the Authority with
           its comments to our discussion draft audit report.

           The contract administrator said she was not aware that the Davis-Bacon Act applied
           to contracts under the Authority’s small purchase threshold of $20,000. In addition,
           there were no quality controls to ensure that required documentation was obtained in
           accordance with HUD’s requirements and the Davis-Bacon Act. The Authority’s
           modernization procedures state that Davis-Bacon requirements do not apply to
           contracts under $2,500 or for work performed by an owner of a contracted company.
           However, Davis-Bacon Act requirements are applicable to all Federally funded
           construction contracts greater than $2,000, and owners who perform construction
           work are required to submit payroll reports.

           Four of the contractors’ employees that were underpaid were listed as apprentices on
           the contractors’ payroll reports or employee interview forms. However, the
           Authority was unable to support that the employees were registered in a bona fide
           apprenticeship program as required by the Davis-Bacon Act. In addition, based on
           the payroll reports provided, the apprentices were the only workers on the projects.




                                              7
             The Authority did not provide payroll reports showing that journeymen-level
             employees worked during the same timeframes.


Conclusion


             The Authority did not ensure that its contractors purchased products that met
             Federal energy efficiency requirements and paid prevailing wages in accordance
             with the Davis-Bacon Act. This condition occurred because the Authority lacked
             an understanding of Federal requirements and adequate procedures and controls to
             ensure compliance with Federal requirements and its policies. As a result, the
             Authority was unaware that two of its contractors purchased $86,864 in products
             that did not meet Federal energy efficiency standards. In addition, 6 contractors
             underpaid 16 of their employees $4,346 in wages contrary to the Davis-Bacon
             Act. Further, the Authority was unable to support $135,454 in wages. Therefore,
             HUD and the Authority lacked assurance that employees were paid prevailing
             wages in accordance with the Davis-Bacon Act.


Recommendations


             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             1A. Reimburse $86,864 from non-Federal funds to HUD for transmission to the
                 U.S. Treasury for the products purchased that did not meet minimum Federal
                 energy efficiency standards.

             1B. Pursue collection from the applicable contractors or reimburse the appropriate
                 employees $4,346 from non-Federal funds for the wages paid contrary to the
                 Davis-Bacon Act, of which $968 remains to be supported or reimbursed.

             1C. Support that $135,454 in wages were paid in accordance with the Davis-Bacon
                 Act or reimburse from non-Federal funds to HUD for transmission to the U.S.
                 Treasury for the unsupported wages paid by Recovery Act program grant
                 contractors, of which $63,126 remains to be supported or reimbursed.

             1D. Ensure that staff is trained and familiar with Federal contracting requirements.

             1E.   Develop and implement adequate procedures and controls to ensure that
                   contractors follow Federal requirements.




                                               8
Finding 2: The Authority Did Not Appropriately Administer Its Grant
Funds
The Authority did not appropriately administer its grant funds. Specifically, it did not ensure
that program grant expenses were charged to the appropriate accounts. It also did not ensure that
construction work was complete and purchases were approved before payments were issued.
This condition occurred because the Authority lacked adequate procedures and controls to ensure
compliance with Federal requirements and its own policies. As a result, HUD and the Authority
lacked assurance that the Authority’s accounts accurately represented contract expenses and that
work was complete and disbursements were approved before payments were made.



 The Authority Charged
 Expenses to Incorrect Accounts

              We reviewed 100 percent of the Authority’s Recovery Act program grant
              transactions. For each transaction, we ensured that the account charged agreed with
              HUD’s Public and Indian Housing Low-Rent Technical Accounting Guidebook.
              Based on our review, the Authority charged $134,169 of its Recovery Act program
              grant funds to incorrect accounts.

              The Authority purchased security cameras for $103,668 with its Recovery Act grant
              funds. The security cameras were charged to account 1465, Dwelling Equipment.
              Based on HUD’s guidebook, the security cameras should have been charged to
              account 1475, Non-Dwelling Equipment. In addition, the Authority purchased
              stove-top guards for $26,310. The stove-top guards were charged to account 1460,
              Dwelling Structures. Based on HUD’s guidebook, the stove-top guards should have
              been charged to account 1465, Dwelling Equipment. The Authority’s director of
              finance agreed that the items were charged to the incorrect accounts. However, she
              said the security cameras were charged to account 1465 based on the Authority’s
              procedures.

              In administering the Recovery Act grant, the Authority incurred advertising,
              postage, and sign costs totaling $4,190. The costs were charged to accounts 1430,
              Planning, and 1460, Dwelling Structures. Based on HUD’s guidebook, the costs for
              advertising, postage, and signs should have been charged to account 1410,
              Administration. The Authority’s director of finance agreed that the costs should
              have been charged to account 1410 but said they were not charged to account 1410
              because specific dollars were not budgeted for those administrative expenses.
              However, according to HUD’s requirements, up to 10 percent of the grant funds
              could be charged to account 1410. Therefore, these costs could have been charged
              to account 1410 without requiring a budget revision.




                                               9
The Authority Was Unable To
Provide Inspection Reports

           We reviewed 100 percent of the Authority’s 21 Recovery Act-funded construction
           contracts to determine whether the Authority ensured that work was complete before
           issuing payments. For the 21 construction contracts, the Authority was unable to
           provide inspection reports for five contracts showing that work was complete before
           periodic payments were made. In addition, for five contracts, the inspection reports
           provided did not list unit addresses or were insufficient for the work reported as
           complete.

           For the 21 Recovery Act-funded construction contracts, the Authority was unable to
           provide inspection reports or work completion forms for seven contracts to show
           that work was complete before final payments were issued. The Authority received
           certificates of completion or final lien waivers from four of the seven contractors.
           However, because it was unable to provide work completion forms, there was no
           support that the final inspections of the contracted work were conducted before the
           payments were issued.


The Authority Issued Payments
Without Final Approval

           According to its procurement policy, the Authority was required to approve
           purchase requisitions before approving purchase orders and approve purchase orders
           before issuing payments. We reviewed the Authority’s Recovery Act grant
           purchases in their entirety to ensure that they were administered in accordance with
           Authority policies and procedures. Based on our review, the Authority issued
           payments without final approval.

           The Authority’s small purchase threshold was $20,000 for the purchase of goods and
           $25,000 for construction contracts. The Authority had 35 transactions below the
           small purchase threshold. Based on our review of the 35 small purchase
           transactions, the Authority

                 Received 24 invoices dated before the purchase orders were created,
                 Received 13 invoices dated before the purchase requisitions were approved,
                 Issued 9 payments before the purchase orders were approved, and
                 Issued 2 payments before the purchase requisitions were approved.

           In addition, it did not obtain final approval for three purchase requisitions and
           purchase orders. The Authority’s procurement assistant said two of the transactions
           were approved under the Authority’s annual open purchase order procedures.
           However, she was unable to provide copies of the approved annual purchase
           requisitions.




                                            10
             The Authority administered 17 contracts that exceeded the small purchase threshold.
             We reviewed the payments for the 17 contracts to determine whether the contracts
             were executed and the disbursements were approved before payments were issued.
             The Authority made four payments before the disbursements were approved.


Conclusion


             The Authority did not appropriately administer its grant funds. Specifically, it
             charged $134,l69 of the Recovery Act program grant expenses to incorrect
             accounts. In addition, it was unable to support that construction work was
             complete and purchases were approved before payments were issued. This
             condition occurred because the Authority lacked an understanding of HUD’s
             requirements and adequate procedures and controls over its program grant
             disbursements to ensure that work was complete and approval was obtained
             before payments were made. As a result, HUD and the Authority lacked
             assurance that the Authority’s accounts accurately represented contract expenses
             and that work was complete and disbursements were approved before payments
             were made.


Recommendations


             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             2A. Update its policies for the classification of expenses to ensure that they agree
                 with HUD’s requirements and ensure that its staff is properly trained and
                 familiar with the classification requirements.

             2B. Develop and implement adequate quality control procedures to ensure that
                 inspections are performed to ensure that construction work is complete and
                 final approval is obtained before payments are made.




                                               11
Finding 3: The Authority’s Procurement Procedures Had Weaknesses
The Authority’s procurement procedures had weaknesses. The Authority did not properly
procure and execute small purchases or contracts above its small-purchase threshold. This
condition occurred because the Authority lacked an understanding of Federal and its
procurement requirements and adequate controls to ensure compliance with HUD’s requirements
and its policies. As a result, HUD and the Authority lacked assurance that contracts were
properly procured and executed.



 Small Purchases Were Not
 Properly Administered

              The Authority’s small purchase threshold was $20,000 for the purchase of goods and
              $25,000 for construction contracts. We reviewed nine contracts that were below the
              small purchase threshold to determine whether the Authority obtained and
              maintained the required documentation in accordance with HUD’s requirements and
              its policies and procedures. The Authority did not maintain support showing that

                    Required clauses were included with the nine contracts,
                    Independent cost estimates were completed for the nine contracts, and
                    At least three bids were received for five contracts.

              The Authority’s contract administrator said she was not aware that the clauses and
              independent cost estimates were required for contracts under the small purchase
              threshold. However, the Authority’s procurement policy quick reference states that
              independent cost estimates are required for contracts between $2,000 and $20,000.

              The Authority’s micropurchase threshold was $2,000, and transactions under $50
              were administered using its petty cash procedures. We reviewed the eight purchases
              of goods within the small, micro, and petty cash thresholds to determine whether the
              Authority prepared receiving reports for the goods in accordance with its procedures.
              Of the eight purchases reviewed, the Authority did not prepare receiving reports for
              five purchases.


 Procurement Documents Were
 Missing or Incomplete

              The Authority administered 17 Recovery Act grant contracts above its small
              purchase threshold. We reviewed the contract files and procurement documentation
              for all 17 contracts. The Authority did not obtain or maintain required procurement
              and contract documentation in accordance with HUD’s requirements and its policies
              and procedures.




                                               12
             The Authority was unable to provide copies of three contracts. For one of the
             contracts, the Authority’s contract administrator said it piggybacked on a State
             contract for security camera upgrades. HUD’s procurement policy allows
             intergovernmental agreements, which can be used to purchase supplies and services
             through a State government’s contractor. However, the policy requires the
             Authority to maintain a copy of the intergovernmental agreement with the State and
             documentation showing that cost and availability were evaluated before the
             agreement was executed. The Authority was unable to provide documentation
             showing that an independent cost estimate was completed or that it executed an
             intergovernmental agreement with the State.

             For the remaining 14 contracts, the Authority was unable to support that it obtained
             the following procurement documentation:

                    Performance and payment bonds for 4 contracts,
                    Schedules of payments for 3 contracts,
                    Independent cost estimates for 2 contracts,
                    Determination of contractor responsibility for 1 contract, and
                    A signed Section 3 compliance form for 1 contract.

             In addition, the Authority was unable to provide justification for the use of a sole
             source proposal for one contract and the selection of two contractors when an
             insufficient number of bids was received. Further, there was no support that one
             contractor was provided a copy of the required contract clauses and that another
             received a copy of the “buy American” compliance form.

             Further, for the 14 contracts executed by the Authority, the following documents
             were incomplete or were completed in an untimely manner:

                    Independent cost estimates were not supported for 9 contracts,
                    Schedules of payments were completed in an untimely manner for 5
                     contracts,
                    Determinations of contractor responsibility were incomplete for 4 contracts,
                    Schedules of payments were incomplete for 3 contracts, and
                    An independent cost estimate was completed in an untimely manner for 1
                     contract.


Conclusion


             The Authority was unable to provide supporting documentation to show that its
             Recovery Act program grant contracts were appropriately procured and executed.
             This condition occurred because the Authority lacked an understanding of HUD’s
             requirements and its policies and procedures. In addition, it lacked adequate
             control procedures to ensure that it appropriately administered its program grant



                                               13
          contracts. As a result, HUD and the Authority lacked assurance that contracts
          were properly procured and executed.


Recommendations


          We recommend that the Director of HUD’s Chicago Office of Public Housing
          require the Authority to

          3A. Ensure that its staff is properly trained and familiar with HUD’s procurement
              requirements and its policies and procedures.

          3B. Develop and implement adequate quality control procedures to ensure that
              contracts are procured and executed in accordance with HUD’s requirements
              and its policies and procedures.




                                          14
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

      Applicable laws and regulations; the Recovery Act; Office of Management and Budget
       Circular A-87; HUD’s program requirements at 24 CFR (Code of Federal Regulations)
       Parts 85, 135, 905, 964, 965, and 990; 29 CFR Part 5; 10 CFR Part 430; HUD’s letter LR-
       96-01; HUD’s Office of Public and Indian Housing notices; HUD Handbook 7460.8, REV-
       2; and HUD Guidebook 7510.1.

      The Authority’s accounting records and bank statements; annual audited financial
       statements for fiscal years 2007, 2008, 2009, and 2010; contract files; policies and
       procedures; board meeting minutes for March 2009 through July 2011; organization chart;
       program annual contributions contract with HUD; and 5-year and annual plans.

      Contractors’ accounting records, bank statements, invoices, and payroll reports.

      HUD’s files for the Authority.

We also interviewed the Authority’s employees and HUD’s staff.

Finding 1
We reviewed the materials invoices for the five contracts with purchases subject to Federal
energy efficiency standards. We compared the energy ratings for the products purchased to the
minimum energy efficiency standards. For the products that did not meet the minimum energy
efficiency standards, we determined whether the purchases of the less efficient products were
cost effective. We obtained 2009 material costs for products that met the Federal energy
efficiency standards from the Authority’s contractors and compared them to quotes from local
companies to determine their reasonableness. To calculate the cost effectiveness, we used the
Federal Energy Management Program and Energy Star usage calculators to determine annual
energy savings for the products purchased and products that met the minimum energy efficiency
standards quoted by the Authority’s contractors. We assumed a product life of 15 years in our
calculation. We compared the difference in lifetime energy costs to the price difference between
the products to determine whether the purchases were cost effective.

We reviewed the payroll reports and employee interviews obtained by the Authority for the 19
construction contracts greater than $2,000 to determine whether the Authority ensured that its
contractors paid prevailing wages in accordance with the Davis-Bacon Act. We compared the
payroll reports to the pay stubs provided by the contractors to determine the amounts paid to the
employees. We compared the wages paid to the employees with the applicable prevailing wages.

Finding 2
We reviewed the Authority’s Recovery Act program grant expenditures in their entirety. We
compared the account charged in the Authority’s general ledger for each expense with the




                                                15
account description in HUD’s Indian Housing Low-Rent Technical Accounting Guidebook
7510.1G.

We reviewed the Authority’s Recovery Act program contract files in their entirety to determine
whether the Authority conducted inspections before issuing payments. For periodic payments,
we compared the units or percentage complete reported on the contractor’s invoice with the
inspection reports to determine whether there was sufficient support for the periodic payment.

We reviewed the Authority’s Recovery Act program grant purchases in their entirety. For small,
micro, and petty cash purchases, we compared the purchase requisition dates to the (1) purchase
order dates to determine whether the purchase requisitions were approved before the purchase
orders were approved, (2) related invoice dates to determine whether the purchase requisitions
were approved before the orders were placed, and (3) check dates to determine whether the
purchase requisitions were approved before the payments were issued. We also compared the
purchase order dates to the check dates to determine whether the purchase orders were approved
before payments were made. Finally, we reviewed the purchase requisitions and purchase orders
to determine whether they included the required approval signatures.

For contracts above the small purchase threshold, we compared the contract dates to the (1)
payout request dates to determine whether the contracts were approved before payments were
approved, (2) related invoice dates to determine whether the contracts were approved before
work was billed, and (3) related check payment dates to determine whether the contracts were
approved before payments were made. We also compared the payout request dates to the check
dates to determine whether the payout requests were approved before payments were issued.
Finally, we reviewed the contracts and payout requests for the required approval signatures.

Finding 3
We reviewed the Authority’s Recovery Act program contract files in their entirety to determine
whether the Authority procured and executed the contracts in accordance with HUD’s
requirements and its policies and procedures.

We relied in part on data maintained by the Authority in its systems. Although we did not
perform a detailed assessment of the reliability of the data, we performed a minimal level of
testing and found the data to be adequately reliable for our purposes.

We performed onsite audit work between August and December 2011 at the Authority’s offices
located at 200 North 11th Street, Springfield, IL, and 1910 Truman Road, Springfield, IL. The
audit covered the period March 1, 2009, through July 31, 2011, but was expanded as determined
necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                16
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Effectiveness and efficiency of operations – Policies and procedures that the
                      audited entity has implemented to provide reasonable assurance that a
                      program meets its objectives, while considering cost effectiveness and
                      efficiency.

                     Reliability of financial reporting – Policies and procedures that management
                      has implemented to provide reasonable assurance regarding the reliability of
                      financial reporting and the preparation of financial statements in accordance
                      with generally accepted accounting principles.

                     Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 17
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                   The Authority lacked adequate procedures and controls to ensure that
                    Recovery Act program contractors purchased products that met Federal
                    energy efficiency standards and paid prevailing wages in accordance with
                    the Davis-Bacon Act (see finding 1).

                   The Authority lacked adequate procedures and controls to ensure that
                    program grant expenditures were charged to the correct accounts (see finding
                    2).

                   The Authority lacked adequate controls to ensure that inspections were
                    performed and documented and purchases received final approval before
                    payments were issued (see finding 2).

                   The Authority lacked adequate procedures and controls to ensure that
                    procurements were conducted in accordance with HUD’s requirements and
                    the Authority’s policies and procedures (see finding 3).

Separate Communication of
Minor Deficiencies


             We informed the Authority’s executive director and the Director of HUD’s Chicago
             Office of Public Housing of minor deficiencies through a memorandum, dated
             February 21, 2012.




                                              18
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS


        Recommendation             Ineligible 1/    Unsupported      Funds to be put
            number                                           2/      to better use 3/
               1A                      $86,864
               1B                                                            $4,346
               1C                                      $135,454
              Totals                   $86,864         $135,454              $4,346

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.




                                             19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                        Auditee Comments

                                     RESPONSE TO OIG’S AUDIT FINDINGS

                   Finding #1 – The Authority’s Contract Administration Procedures Had Weaknesses

             OIG Recommendation 1A                     Reimburse $86,864 from non-Federal funds to HUD
                                                       for transmission to the U.S. Treasury for the
                                                       Recovery Act program grant funds used to
                                                       purchase products that did not meet the minimum
                                                       Federal energy efficiency standards.

             Management Response:                      Disagree

                                                       Upon review of the “Energy Efficiency Review”
                                                       schedule, the Springfield Housing Authority referred to
                                                       applicable PIH Notices and ARRA guidance for
                                                       mandatory language for the purchase of “Energy Star”
                                                       or “FEMP” rated equipment in modernization
                                                       activities. PIH Notices reviewed are summarized
                                                       below:

                                                       PIH 2007-30 (HA) Using Energy Star to Promote
                                                       Energy Efficiency in Public Housing. The purpose is
                                                       to encourage “Energy Star” as the standard for Public
                                                       Housing Agencies (PHAs), encourages PHAs to
                                                       implement energy saving activities, and informs PHAs
                                                       that “Energy Star” expertise is available to provide
                                                       valuable assistance for implementing energy
                                                       conservation initiatives.

                                                       PIH 2008-25 (HA) Renewable Energy and Green
                                                       Construction Practices in Public Housing. The Notice
                                                       strongly encourages Public Housing Agencies (PHAs)
                                                       to use solar, wind and other renewable energy sources
                                                       and other “green” construction and rehab techniques
                                                       whenever they procure for maintenance, construction
                                                       or modernization.

                                                       PIH 2009-12 (HA) Information and Procedures for
                                                       Processing American Recovery and Reinvestment Act
                                                       Capital Fund Formula Grants. These funds are
                                                       available to address deferred maintenance needs,
                                                       including but not limited to, (1) replacement of
                                                       obsolete systems and equipment with energy efficient
                                                       systems and equipment that reduce consumption….

                                                       PIH 2009-25 (HA) Energy Investment Guidance Under
                                                       American Recovery and Reinvestment Act (Recovery
                                                       Act) of 2009 (H.R. 1). Section 10 – Use of Energy Star
                                                       Products and Appliances – The Energy Policy Act of
                                                       2005, section 152, states that in purchasing appliances,
                                                       a PHA shall purchase energy efficient appliances




                                                20
Ref to OIG Evaluation                Auditee Comments

                                              which are Energy Star products or FEMP-designated
                                              products, unless the purchase of energy-efficient
                                              appliances is not cost effective to the agency. When
                                              purchasing energy products under Recovery Act,
                                              PHAS should ensure that they purchase Energy Star
                                              products or FEMP-designated products, unless the
                                              purchase of energy-efficient appliance is not cost-
                                              effective to the agency. They should also amend their
                                              procurement policies accordingly to reflect provisions
                                              in the Energy Policy Act of 2005.

Comment 1                                     Language in each of the PIH Notices is not mandatory
                                              for the purchase and/or implementation of Energy Star
                                              products in modernization activities. The very nature
                                              of purchasing new equipment in the modernization
                                              projects equates to energy savings over the existing
                                              equipment that was twenty years old. In addition to the
                                              new HVAC systems installed at Brandon, the SHA also
                                              installed new siding. These measures together ensure
                                              increased energy efficiency savings per unit over the
                                              lifetime of the products installed than the existing
                                              equipment prior to modernization.


             OIG Recommendation 1B            Pursue collection from the applicable contractors or
                                              reimburse the appropriate employees $4,346.14
                                              from non-Federal funds for the underpaid wages
                                              contrary to the Davis-Bacon Act.

             Management Response:    Agree / Disagree

                                              The schedule indicates five (5) contractors that
                                              reported underpaid wages through the Davis Bacon
                                              review.

Comment 2                                     D. Lewis Electric has provided documentation that said
                                              employees were paid the apprentice wage and provided
                                              their BAT certificate to substantiate / support
                                              apprentice wages. The SHA disputes the amount of
                                              $2,760.45 owed to those employees from the contractor
                                              and/or non-Federal funds. The owner served as the
                                              Journeyman and provided oversight to the apprentices.
                                              He did not account for his time as wages, but as
                                              owner’s draw. Attached in Exhibit I is supporting
                                              documentation relative to the apprenticeship program.

                                              Evans Construction executed the contract 90 days after
                                              the Bid Opening and the incorrect Davis Bacon wage
                                              was utilized for this employee. The SHA agrees that
                                              the employee should be reimbursed $14.10 from the
                                              contractor and will pursue payment to the employee.




                                      21
Ref to OIG Evaluation                       Auditee Comments

                                                     Masters Brothers has provided documentation that said
Comment 3                                            employee was paid $18.87 per hour based on him
                                                     being an apprentice registered with the state of Illinois.
                                                     He was paid a rate of $17.06 per hour plus a $1.81 per
                                                     hour in fringe benefits. The amount paid to the
                                                     apprentice was 70% of the amount paid to the
                                                     Journeyman on the jobsite. The SHA disputes the
                                                     amount of $380.16 owed to those employees from the
                                                     contractor and/or non-Federal funds. Attached in
                                                     Exhibit I is supporting documentation relative to the
                                                     apprenticeship program.

                                                     Upon review with Ryan Electrical management, Ryan
                                                     Electrical indicated that wages were owed to
Comment 4                                            employees as reported on the schedule. The SHA
                                                     agrees that the employees should be reimbursed
                                                     $1,183.37 from the contractor and will pursue payment
                                                     to the employees. Attached in Exhibit I is supporting
                                                     documentation that underpaid wages were provided to
                                                     the employees.

                                                     Upon review with Ron Furman’s Commercial
                                                     Sweeping & Paving, Inc. management, Ron Furman’s
Comment 5                                            indicated that wages were owed to employees as
                                                     reported on the schedule. The SHA agrees that
                                                     employees should be reimbursed from the contractor
                                                     and will pursue payment to the employees. Attached in
                                                     Exhibit I is supporting documentation that underpaid
                                                     wages were provided to the employees.

             OIG Recommendation 1C                   Provide support or reimburse $135,454 from non-
                                                     Federal funds to HUD for the transmission to the
                                                     U.S. Treasury for unsupported wages paid by
                                                     Recovery Act program grant contractors.

             Management Response:    Disagree
                                                     The amounts included as unsupported wages on the
Comment 6                                            Davis Bacon Review Schedule include contractor costs
                                                     for material, profit and overhead. During the review
                                                     process, it was determined that the OIG was requiring
                                                     contractors to provide total contract labor, material,
                                                     profit and overhead costs on the HUD Form 51000 or
                                                     any other appropriate documentation of actual costs
                                                     associated with the project.

                                                     The Springfield Housing Authority has attached as
Comment 7                                            Exhibit II updated HUD Form 51000 and payroll
                                                     reports to substantiate accurate labor costs for the
                                                     projects for Evans Construction and Ron Furman
                                                     Commercial Sweeping and Paving, Inc. to satisfy this
                                                     finding. Reimbursement should not be required.




                                                22
Ref to OIG Evaluation                Auditee Comments

                                           Instead, the SHA requests that the Authority be
                                           required to develop procedures to address completion
                                           of the HUD Form 51000 and/or other applicable
                                           schedule of values to compare weekly payroll reports
                                           and/or pay requests to ensure labor is appropriately
                                           applied to each contract. The SHA maintains that
                                           funds were spent appropriately on eligible ARRA
                                           activities that modernized public housing units and
                                           directly benefitted residents. There are no adverse OIG
                                           findings. This recommendation encompasses a
                                           recording error rather than misappropriation of funds.

             OIG Recommendation 1D         Ensure that staff is trained and familiar with
                                           Federal contract requirements.

             Management Response:          Agree

             Action Plan                   The direct Modernization staff has been provided with
                                           various industry training sessions including Capital
                                           Fund and Procurement/Contract Management. Further,
                                           ARRA implementation guidance was distributed by the
                                           Executive Director to Modernization staff on a
                                           consistent and regular basis during the course of the
                                           grant program.

Comment 8                                  The SHA will provide additional training opportunities
                                           to employees (Deputy Director, Director of Finance,
                                           Construction Manager, Procurement Assistant and
                                           Contract Administrator) operating in functions relative
                                           to ARRA programs and/or Capital Fund programs in
                                           areas inclusive of, but not limited to the following:
                                           Capital Fund, Procurement and Contract Management,
                                           Section 3 and Labor Standards, Davis Bacon
                                           Implementation, etc. to ensure further compliance with
                                           HUD rules and regulations. They will attend annual
                                           and semi-annual refresher courses as available to stay
                                           abreast of applicable rules and regulations.

             OIG Recommendation 1E         Develop and implement procedures to ensure
                                           contractors follow Federal requirements.

             Management Response:          Agree

                                           Action Plan           Although the OIG review
Comment 8                                  identified areas in need of improvement, the
                                           Springfield Housing Authority reviews and revises its
                                           policies and procedures on an annual basis to ensure
                                           compliance with HUD rules and regulations. The SHA
                                           will update its file management process as it relates to
                                           tying all three components together within contract
                                           administration (i.e. Davis Bacon/certified payroll




                                      23
Ref to OIG Evaluation                         Auditee Comments

                                                        review, contractor requests for payment and inspection
                                                        of work items prior to approval of payment requests).

                      Finding #2 – The Authority Did Not Appropriately Administer Its Grant Funds

             OIG Recommendation 2A                      Update its policies for the classification of expenses
                                                        to ensure they agree with HUD’s requirements and
                                                        ensure that its staff is properly trained and familiar
                                                        with the classification requirements.

             Management Response:                       Agree

             Action Plan                                The Springfield Housing Authority agrees that 97% of
                                                        the review finding included two (2) misclassification of
                                                        products that benefitted the residents (i.e. security
                                                        cameras and safe-T elements to prevent cooking fires).
Comment 9                                               The other 3% was relative to misclassification of
                                                        advertising costs associated with invitation for bid
                                                        releases. The misclassifications were corrected while
                                                        the OIG auditors were on site and did not negatively
                                                        impact the 10% cap on administrative funds for the
                                                        ARRA grant.

                                                        The Director of Finance and/or the Finance Manager
                                                        will review classifications as necessary to ensure
                                                        compliance with HUD’s Public and Indian Housing
                                                        Low-Rent Technical Accounting Guidebook.


             OIG Recommendation 2B                      Develop and implement adequate quality control
                                                        procedures to ensure that inspections are
                                                        performed to ensure construction work is complete
                                                        and approval is obtained before payments are
                                                        made.

             Management Response:                       Agree / Disagree

             Action Plan                                The Springfield Housing Authority Modernization
                                                        Department conducted site inspections as the work was
                                                        being completed; however the reports were not
                                                        included in the contract file each and every inspection.
                                                        In addition to any other site inspection reports in the
                                                        contract file, appropriate staff will conduct a site
                                                        inspection as each Contractor Pay request is presented
                                                        and attach the written site inspection report to the pay
                                                        request. Payments to contractors will not be made
                                                        without the site inspection report attached to the
                                                        applicable pay request. Further, the Deputy Director
                                                        will conduct quality control reviews of a percentage of
                                                        contract files to ensure compliance with HUD rules and
                                                        regulations.




                                                 24
Ref to OIG Evaluation                        Auditee Comments

                                                      The recommendation summary contained within the
                                                      audit report indicates that invoices were received prior
                                                      to final approval of purchase requisitions by the
                                                      Executive Director and that payments were made prior
                                                      to final approval of purchase orders. The SHA
                                                      provided additional documentation to the auditors that
                                                      the Director of Finance and/or the Deputy Director
                                                      have signatory authority on purchase requisitions to
                                                      move the procurement process along efficiently.
Comment 10                                            Attached in Exhibit III is supporting documentation
                                                      that signatory authority was provided to the Deputy
                                                      Director and Director of Finance for purchases made
                                                      by the SHA. The SHA will further review its current
                                                      Procurement Policy to ensure that standard operating
                                                      procedures do not conflict with policies and make
                                                      necessary adjustments.

                        Finding #3 – The Authority’s Procurement Procedures Had Weaknesses

             OIG Recommendation 3A                    Ensure that staff is properly trained and familiar
                                                      with HUD’s procurement requirements and its
                                                      policies and procedures.

             Management Response:    Agree
                                                      The direct Modernization staff has been provided with
                                                      various industry training sessions including Capital
                                                      Fund and Procurement/Contract Management. Further,
                                                      ARRA implementation guidance was distributed by the
                                                      Executive Director to Modernization staff on a
                                                      consistent and regular basis during the course of the
                                                      grant program.

Comment 8                                             The SHA will provide additional training opportunities
                                                      to employees (Deputy Director, Director of Finance,
                                                      Construction Manager, Procurement Assistant and
                                                      Contract Administrator) operating in functions relative
                                                      to ARRA programs and/or Capital Fund programs in
                                                      areas inclusive of, but not limited to the following:
                                                      Capital Fund, Procurement and Contract Management,
                                                      Section 3 and Labor Standards, Davis Bacon
                                                      Implementation, etc. to ensure further compliance with
                                                      HUD rules and regulations. They will attend annual
                                                      and semi-annual refresher courses as available to stay
                                                      abreast of applicable rules and regulations.

             OIG Recommendation 3B                    Develop and implement quality control procedures
                                                      to ensure that contracts are procured and executed
                                                      in accordance with HUD’s requirements and its
                                                      policies and procedures.

             Management Response:                     Agree

                                                      Action Plan          The Deputy Director and/or
                                                      Director of Finance will conduct quality control
                                                      reviews of a percentage of contract files to ensure
                                                      compliance with HUD rules and regulations inclusive
                                                      of, but not limited to Independent Cost Estimates,
                                                      Schedule of Payments, Performance and Payment
                                                      Bonds, Section 3 Compliance, etc.




                                               25
Ref to OIG Evaluation      Auditee Comments

Comment 8    Action Plan         The Deputy Director and/or Director of Finance will
                                 conduct quality control reviews of a percentage of
                                 contract files to ensure compliance with HUD rules and
                                 regulations inclusive of, but not limited to Independent
                                 Cost Estimates, Schedule of Payments, Performance
                                 and Payment Bonds, Section 3 Compliance, etc.




                            26
                         OIG Evaluation of Auditee Comments

Comment 1   Public and Indian Housing Notice 2009-25, Section 10, states that a public
            housing authority shall purchase energy efficient appliances which are Energy
            Star products or Federal Energy Management Program (FEMP) designated
            products, unless the purchase of energy-efficient appliances is not cost effective to
            the agency. During our review, we determined whether the products purchased
            that did not meet the minimum energy-efficiency requirements were cost
            effective. The $86,864 cited in the finding is for products that did not meet the
            energy-efficiency requirements and were not cost effective.

Comment 2   We reviewed the documents provided and reduced Recommendation 1B by
            $2,760.

Comment 3   The apprenticeship agreement provided stated that it did not constitute a
            certification for the employment of the apprentice on Federally-financed
            construction projects. A current certification from the Bureau of Apprenticeship
            and Training of the recognized State Apprenticeship Agency is required to
            support the employee’s apprenticeship status.

Comment 4   We reviewed the documents provided and reduced Recommendation 1B by $622.
            However, the documentation provided did not include support for the repayment
            of $561 of the $1,183.

Comment 5   We commend the Authority’s efforts to ensure that employees were paid
            according to the Davis-Bacon Act and ensure that they receive the appropriate
            reimbursements.

Comment 6   In an attempt to determine whether contractors correctly paid wages in
            accordance with the Davis-Bacon Act, we requested that contractors provide us
            with an itemization of costs. As the Authority states in the following paragraph,
            the documentation that it maintained did not ensure that labor was appropriately
            applied to each contract.

Comment 7   We reviewed the documentation provided and Recommendation 1C was reduced
            by $72,328 and Recommendation 1B was increased by $5. The annual
            contributions contract between HUD and the Authority states that the Authority
            must maintain complete and accurate books of account for its projects in such a
            manner as to permit the preparation of statements and reports in accordance with
            HUD requirements. There currently is an OIG finding on this matter. Only the
            payroll records and cancelled payroll checks will support whether there is record
            keeping issue or a misuse of Recovery Act funds.

Comment 8   The actions taken, in process, and proposed by the Authority, if fully
            implemented, should improve its program operations.




                                             27
Comment 9     No documentation was provided to support that the misclassifications were
              corrected. However, we agree that there was no negative impact on the 10
              percent cap on administrative funds for the grant.

Comment 10 The supporting documentation for signatory authority was provided during the
           audit and the review was adjusted based on the updated policy. The finding cited
           in this report includes purchases that were administered contrary to these
           procedures.




                                             28
Appendix C

      FEDERAL REQUIREMENTS AND THE AUTHORITY’S
            PROGRAM ADMINISTRATIVE PLAN

Finding 1

Section 1606 of the Recovery Act states that all laborers and mechanics employed by contractors
and subcontractors on projects funded directly by or assisted in whole or in part by and through
the Federal Government pursuant to this Act must be paid wages at rates not less than those
prevailing on projects of a character similar in the locality as determined by the Secretary of
Labor in accordance with subchapter IV of chapter 31 of Title 40, United States Code.

The Energy Policy Act of 2005 states that in purchasing appliances, a public housing authority
must purchase energy-efficient appliances that are Energy Star products or Federal Energy
Management Program-designated products, as such terms are defined in Section 553 of the
National Energy Conservation Policy Act, unless the purchase of energy-efficient appliances is
not cost effective to the agency.

Regulations at 24 CFR 965.306 state that in purchasing original or replacement equipment,
public housing authorities must acquire only equipment that meets or exceeds the minimum
efficiency requirements established by the U.S. Department of Energy.

U.S. Department of Labor regulations at 29 CFR 5.5(a) state that the agency head must cause or
require the contracting officer to insert in full in any contract in excess of $2,000, which is
entered into for the actual construction, alteration, or repair, including painting and decorating, of
a public building or public work or building or work financed in whole or in part from Federal
funds or in accordance with guarantees of a Federal agency or financed from funds obtained by
pledge of any contract of a Federal agency to make a loan, grant, or annual contribution, and
which is subject to the labor standards provisions, the labor standards clauses.

U,S. Department of Labor regulations at 29 CFR 5.5(a)(3)(i) state that contractors employing
apprentices or trainees under approved programs must maintain written evidence of the
registration of apprenticeship programs and certification of trainee programs, the registration of
the apprentices and trainees, and the ratios and wage rates prescribed in the applicable programs.

HUD letter LR-95-01, part III, states that owners of businesses working with their crew on the
same HUD-assisted job site may certify to the payment of their own prevailing wages in
conjunction with the prevailing wages paid to their employees. This exception to reporting
standards does not suggest that such owners are not likewise entitled to prevailing wages for
their labor. Rather, it accepts the wage payment certification on weekly payroll reports by the
owner for his or her own wages as that certification accompanies the certification offered for the
payment of prevailing wages to his or her employees. Such owners need only list their name,




                                                 29
work classification including “owner,” and the daily and total hours worked. Such owners do
not need to list a rate of pay or amounts earned.

Public and Indian Housing Notice 2009-25, section 10, states that the Energy Policy Act of 2005
states that in purchasing appliances, a public housing authority shall purchase energy efficient
appliances which are Energy Star products or Federal Energy Management Program designated
products, unless the purchase of energy-efficient appliances is not cost effective to the authority.

Section 15(A) of the Annual Contributions Contract between HUD and the Authority states the
Authority must maintain complete and accurate books of account for its projects in such a
manner as to permit the preparation of statements and reports in accordance with HUD
requirements, and to permit timely and effective audit.

The Authority’s Modernization Department Standard Operating Procedures, Contracting
Process, section C, page 19, states that there are only two conditions in which Davis-Bacon
prevailing wages do not apply to a contract: contracts under $2,500 or if an owner of a
contracted company is also the one doing the work and has not employed anyone else to assist
him in that work.

The Authority’s Modernization Department Standard Operating Procedures, Contracting
Process, section C, page 20, states that an Authority representative will be on the job site
conducting employee interviews for workers to ensure compliance with Federal regulations.
Apprentices will be permitted to work at less than the predetermined rate for the work they
perform when employed and individually registered in a bona fide apprenticeship program
registered with the U.S. Department of Labor. Copies of the apprentice certification identifying
ratio will be requested. If none is provided, that employee is entitled to prevailing wages.

Finding 2

HUD’s Public and Indian Housing Low-Rent Technical Accounting Guidebook 7510.1G states
that account 1410.19, Administration, must be charged with all items of administrative and
general expense incurred in connection with the planning and development of the project for
which a specific account is not provided in the 1410 group of accounts. Charges to this account
include advertising costs in connection with procuring bids for demolition, construction,
landscaping, and other contracts for development work; the cost of postage; messenger service
expenses; and incidental express, freight, and drayage not identified with and charged to the
same account as the article shipped.

HUD’s Public and Indian Housing Low-Rent Technical Accounting Guidebook 7510.1G states
that account 1465, Dwelling Equipment, must be charged with the cost of all ranges,
refrigerators, individual space heaters which are not connected to ducts or pipes for the
distribution of heat, shades, screens, and other similar equipment.

HUD’s Public and Indian Housing Low-Rent Technical Accounting Guidebook 7510.1G states
that account 1475.4, Non-Dwelling Equipment, must be used for recording the cost of computers
and peripheral equipment. Computer equipment is defined to include central processing and




                                                 30
peripheral equipment such as input and output machines, data preparation machines, data storage
machines, and major components which upgrade the processing of computers and peripheral
equipment.

The Authority’s procurement policy, section II(B), states that the executive director or his or her
designee must ensure that work is inspected or goods are received before payment.

Section II(C)(3)(9) of the policy states that when the purchasing agent receives an approved
purchase requisition, he prepares and signs the purchase order and it is attached to the purchase
requisition package and separated. Once the goods have been received, the purchasing agent will
send the completed purchase order package to the account tech 1, who will attach the copy of the
invoice to the purchase order, which is then forwarded to the director of finance and
administration. The director of finance and administration will review the invoice against the
materials billed and approve the purchase order and sign for payment. The director of finance
and administration will return the approved purchase order package to the account tech 1 for
payment processing.

Section A(1), Quick Reference, of the policy states that all goods and services must by generated
by a purchase requisition.

Section A(2), Quick Reference, of the policy states that the requisition routing schedule normally
takes between 2 and 7 business days, depending on the type of procurement. It says that the
employee must complete a purchase requisition and forward it to the area manager for approval,
the area manager should forward the purchase requisition to the Procurement Department, and
the Procurement Department will process and forward it for (1) deputy director approval, (2)
director of finance and administration approval, and (3) executive director approval. Once the
purchase requisition has received all required approvals, the goods or services will be ordered via
a purchase order.

Finding 3

Regulations at 24 CFR 85.36(f)(1) state that grantees must make independent estimates before
receiving bids or proposals.

Regulations at 24 CFR 85.36(h) state that for construction or facility improvement contracts
exceeding the simplified acquisition threshold, the minimum requirements must be (1) a bid
guarantee from each bidder equivalent to 5 percent of the bid price, (2) a performance bond on
the part of the contractor for 100 percent of the contract price, and (3) a payment bond on the
part of the contractor for 100 percent of the contract price.

HUD Handbook 7460.8, REV-2, paragraph 3.2(D), states that the contracting officer must
prepare or have prepared an independent cost estimate commensurate with the purchase
requirement. The level of detail will depend upon the dollar value of the proposed contract and
the nature of the goods or services to be acquired.




                                                31
HUD Handbook 7460.8, REV-2, paragraph 5.10(B), states for contracts greater than $2,000 but
less than $100,000, public housing authorities must incorporate the clauses contained in form
HUD-5370-EZ, General Conditions for Small Construction/Development Contracts, and the
applicable Davis-Bacon wage decision.

HUD Handbook 7460.8, REV- 2, paragraph 14.2(A)(4), states that the public housing authority’s
procurement files must contain a copy of the intergovernmental agreement and documentation
showing that cost and availability were evaluated before the agreement was executed.

HUD Handbook 7460.8, REV-2, paragraph 14.2(B)(5), states that intergovernmental agreements
may include purchasing supplies and services through a State government’s contractor.

The Authority’s procurement policy, section II(B)(5), states that an independent cost estimate
must be prepared before a solicitation.

The Authority’s procurement policy, section IV(A), states that procurements must be conducted
only with responsible contractors and vendors; that is, those who have the technical and financial
competence to perform and who have a satisfactory record of integrity. Before awarding a
contract, the Authority must review the proposed contractor’s ability to perform the contract
requirements successfully, considering factors such as the contractor’s integrity (including a
review of the General Services Administration’s list of parties excluded from Federal
procurement and nonprocurement programs), HUD’s list of suspended and debarred contractors,
compliance with public policy, record of past performance (including contacting previous clients
of the contractor including other public housing authorities), and financial and technical
resources.




                                               32
